<html>
<title> - H.R. 404, TO AMEND THE FEDERAL PROPERTY AND ADMINISTRATIVE SERVICES ACT OF 1949</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
H.R. 404, TO AMEND THE FEDERAL PROPERTY AND ADMINISTRATIVE SERVICES ACT                                 OF 1949
=======================================================================


                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 404

 TO AMEND THE FEDERAL PROPERTY AND ADMINISTRATIVE SERVICES ACT OF 1949 
  TO AUTHORIZE THE TRANSFER TO STATE AND LOCAL GOVERNMENTS OF CERTAIN 
SURPLUS PROPTERTY FOR USE FOR LAW ENFORCEMENT OR PUBLIC SAFETY PURPOSES

                               __________

                              JUNE 3, 1997

                               __________

                           Serial No. 105-56

                               __________

Printed for the use of the Committee on Government Reform and Oversight










                       U. S. GOVERNMENT PRINTING OFFICE
45-061                          WASHINGTON : 1997
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
PETE SESSIONS, Texas                 CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
JOE SCARBOROUGH, Florida             MAJOR R. OWENS, New York
MARSHALL ``MARK'' SANFORD, South     ROD R. BLAGOJEVICH, Illinois
    Carolina                         DANNY K. DAVIS, Illinois
JOHN E. SUNUNU, New Hampshire
ROB PORTMAN, Ohio

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
             J. Russell George, Staff Director and Counsel
                Mark Brasher, Professional Staff Member
                 John Hynes, Professional Staff Member
                          Andrea Miller, Clerk
          Mark Stephenson, Minority Professional Staff Member













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 3, 1997.....................................     1
    Text of H.R. 404.............................................     6
Statement of:
    Bono, Hon. Sonny, a Representative in Congress from the State 
      of California..............................................    19
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     8
    Creed, Gordon, Deputy Assistant Commissioner, Public Building 
      Service, General Services Administration...................    22
    Feinstein, Hon. Dianne, a U.S. Senator from the State of 
      California.................................................    13
    Torres, Ascension (Sam), chairman, Joint Powers Authority; 
      Larry Smith, sheriff, Riverside County, accompanied by 
      Erick Schertell, sergeant and legal counsel, Riverside 
      County.....................................................    35
Letters, statements, etc., submitted for the record by:
    Bono, Hon. Sonny, a Representative in Congress from the State 
      of California, prepared statement of.......................    20
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California, prepared statement of.................    10
    Creed, Gordon, Deputy Assistant Commissioner, Public Building 
      Service, General Services Administration, prepared 
      statement of...............................................    24
    Feinstein, Hon. Dianne, a U.S. Senator from the State of 
      California, prepared statement of..........................    14
    Guthrie, Debbi Huffman, Monday Morning Group, prepared 
      statement of...............................................    59
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    International Association of Fire Chiefs, prepared statement 
      of.........................................................    73
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     5
    Mullen, Tom, Riverside County Board of Supervisors, prepared 
      statement of...............................................    53
    Smith, Larry, sheriff, Riverside County, prepared statement 
      of.........................................................    43
    Torres, Ascension (Sam), chairman, Joint Powers Authority, 
      prepared statement of......................................    37











H.R. 404, TO AMEND THE FEDERAL PROPERTY AND ADMINISTRATIVE SERVICES ACT 
                                OF 1949

                              ----------                              


                         TUESDAY, JUNE 3, 1997

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Davis of Virginia, Sununu, 
Maloney, and Davis of Illinois.
    Staff present: J. Russell George, staff director and 
counsel; Mark Brasher and John Hynes, professional staff 
members; Andrea Miller, clerk; Mark Stephenson, minority 
professional staff member; and Ellen Rayner, minority chief 
clerk.
    Mr. Horn. A quorum being the present, the Subcommittee on 
Government Management, Information, and Technology will come to 
order.
    In 1949, the Commission on the Organization of the 
executive branch of the Government, known as the first Hoover 
Commission, recommended the creation of an agency, the General 
Services Administration, to coordinate purchases, utilization, 
and disposal of real and personal property. The Federal 
Property and Administrative Services Act of 1949 set forth the 
rules for the disposal of surplus Federal real estate.
    The Federal Property Act created a series of public benefit 
discounts whereby local government could obtain surplus Federal 
real estate. Today, we are reviewing a proposal to create a new 
public benefit. The current categories of public benefits for 
real property include public health, education, recreation, 
national service activities, historic monuments, correctional 
facilities, and shipping ports only in the case of base closure 
facilities.
    H.R. 404, which has been introduced by our colleague, 
Representative Ken Calvert, would expand the public benefit 
discount for ``correctional facilities'' to cover ``other law 
enforcement'' and ``public safety'' activities.
    H.R. 404 has resulted from the following: Officials in 
Riverside County, CA, wanted to place a coroner's office and a 
law enforcement and fire training academy on surplus Federal 
property at the March Air Force Base. That surplus property had 
become available through the actions of the Defense Base 
Realignment and Closure Commission. The county would like the 
land and the buildings for these functions to be made available 
through one, not two, Federal agencies. Representative Calvert 
has drafted H.R. 404 to address this and similar situations.
    The subcommittee will hear from a number of witnesses who 
are involved in the administration of public benefit discount 
programs at some level, including a top official from the 
General Services Administration.
    Senator Dianne Feinstein, the senior Senator from 
California, will join us to discuss this important issue. She 
has introduced S. 203, a companion bill to H.R. 404, in the 
Senate. Representative Calvert, author of H.R. 404, is here 
today. So is Representative Sonny Bono.
    From the administration, we are joined by Gordon Creed. He 
is Deputy Assistant Commissioner for Property Disposal in the 
Public Building Service of the General Services Administration.
    Also testifying today are two officials from California: 
Larry Smith, sheriff of Riverside County, CA; and Ascension 
(Sam) Torres, the chairman of the Joint Powers Authority, a 
local redevelopment agency set up by the State of California.
    Welcome to each of you.
    [The prepared statements of Hon. Stephen Horn and Hon. 
Carolyn B. Maloney, and the text of H.R. 404 follow:]




[GRAPHIC] [TIFF OMITTED] 45061.001

[GRAPHIC] [TIFF OMITTED] 45061.002

[GRAPHIC] [TIFF OMITTED] 45061.003

[GRAPHIC] [TIFF OMITTED] 45061.004

[GRAPHIC] [TIFF OMITTED] 45061.005

    Mr. Horn. We now call on Representative Calvert to outline 
the fine piece of legislation he has drafted.

  STATEMENT OF HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Thank you, Mr. Chairman. I appreciate your 
kind introduction, and I appreciate assistance in putting this 
hearing together today.
    First, I would like to thank Senator Feinstein in advance--
I understand she will also be here--for helping me introduce 
the Senate version of this important legislation, and she will 
be describing that shortly.
    I also would like to thank my good friend, Sonny Bono, who 
I understand will also be here shortly. We share Riverside 
County together. I represent the west end of Riverside County, 
and Representative Bono the east end. He is also a member of 
the House National Security Committee, and he has a special 
insight, being a former mayor of Palm Springs, as to what it is 
like to work with Federal levels on the local level, Federal 
agencies.
    The area we share, along with Representative George Brown 
and Representative Jerry Lewis, is known as the Inland Empire. 
This part of California has felt the impact of base closures at 
Norton and George Air Force Bases and the realignment of March 
to an Air Force Reserve base.
    I would like to thank Mr. Gordon Creed from GSA for taking 
the time to be here and testify in front of the committee. I 
would like to thank and welcome my close associates from 
Riverside, CA: Sheriff Larry Smith; Mr. Sam Torres, chairman of 
the March Joint Powers Commission at March Air Force Base; 
Debbi Guthrie, a member of the Riverside County Monday Morning 
Group; and Sergeant Eric Schertell of the Riverside County 
Sheriff's Department.
    Finally, again, Mr. Chairman, I would like to thank you for 
cosponsoring H.R. 404 and allowing the opportunity to have this 
hearing today.
    Mr. Chairman, this issue first came to my attention as a 
result of a meeting which took place last year between some of 
our local community leaders and Mr. Dick Ward, deputy director 
of operations for the Bureau of Justice Assistance.
    I was informed the Department of Justice is prohibited by 
statute from sponsoring excess Federal property for the purpose 
of law enforcement and/or public safety training facilities. 
The agency can only convey surplus Federal properties for 
prisons. H.R. 404 and its Senate companion, which is authored 
by our friend, Senator Feinstein--thank you--S. 203, will 
correct this restrictive language and allow the Department of 
Justice to apply its considerable expertise to sponsoring the 
use of excess Federal property for training of law enforcement 
and public safety officials.
    To date, there are over 25 bipartisan cosponsors of the 
measure in the Congress. As it is currently written, H.R. 404 
authorizes the transfer to State and local governments of 
certain surplus property for use for law enforcement or public 
safety purposes.
    However, I understand that the General Services 
Administration has some concerns with the vagueness of the term 
``public safety.'' To address their concerns, I have agreed to 
and intend to support an amendment that would change the 
language to state that the bill authorizes the transfer to 
State and local governments of surplus property for use for law 
enforcement or fire or rescue or life safety purposes.
    Mr. Chairman, this bill is not solely intended for 
Riverside and March Air Force Base in California. This measure 
is applicable to all those military bases which are in the 
process of being closed or realigned. Actually, this change in 
law would apply to all excess real property, Federal excess 
real property. Thus, any community in the country could benefit 
from this improvement in the law. With the possible enactment 
of a new round of base closures, this bill becomes even more 
imperative.
    I would like to take this opportunity to introduce again 
Sheriff Larry Smith, who will be testifying soon, and my friend 
and colleague, Sonny Bono, who joined us, for his help in 
putting together this important legislation, as I mentioned 
earlier, in an area that we both represent.
    Sheriff Smith is the elected Sheriff of Riverside County 
and the chief law enforcement authority of the county. He 
commands California's fourth largest sheriff's department, 
supervising more than 2,300 personnel. He entered the Riverside 
County Sheriff's Department in 1966 and started his career as a 
deputy sheriff in the Blythe, CA, jail and patrol station and 
has since held each successive rank in assignments across the 
county.
    Sheriff Smith was promoted to chief deputy in 1987 by then 
Sheriff Cois Byrd and was elected as Riverside County's elected 
sheriff, winning the office in the June 1993 primary. He holds 
a bachelor's degree in public management from the University of 
Pepperdine and has completed graduate work at the University of 
Southern California. We are proud to have him here today.
    Also with us is Sam Torres, my good friend from Perris, CA, 
who is chairman of the March Joint Powers Commission at March 
Air Force Reserve Base in California. Mr. Torres was selected 
chairman in January 1997. In 1991, Mr. Torres was elected to 
the City Council of Perris, an incorporated city of 31,000 in 
central Riverside County, which Mr. Bono and I both share as 
far as representing the city.
    As a member of the Perris City Council, Mr. Torres has 
accepted a number of related responsibilities. He is currently 
a member of the board of directors of the League of California 
Cities and held that position since 1996. He is also a member 
of the Latino Elected Officials Caucus of the League of 
California Cities and served as president of that caucus in 
1993 and 1994. Councilman Torres resides in Perris with his 
wife of 18 years, Susan, and their children, Jessica and Sammy.
    Once again, Mr. Chairman, I thank you and my colleagues and 
the committee for agreeing to hold this important hearing and 
look forward to any questions you may have.
    [The prepared statement of Hon. Ken Calvert follows:]
    [GRAPHIC] [TIFF OMITTED] 45061.006
    
    [GRAPHIC] [TIFF OMITTED] 45061.007
    
    [GRAPHIC] [TIFF OMITTED] 45061.008
    
    Mr. Horn. We thank the gentleman very much for appearing.
    I am delighted now to welcome the senior Senator from 
California, one of the hardest working Senators I have known 
over 50 years and the person who gets our legislation through 
on the Senate side.
    Thank you very much for coming.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. It is 
good to see you again.
    Mr. Chairman, I am very pleased to be able to support House 
Resolution 404. I would like to thank the two distinguished 
Members on my left and thank you for doing this.
    Obviously, we first learned about this from Riverside, from 
the Sheriff's Office and from the Reuse Committee. This is 
rather straightforward legislation. Essentially, what it does 
for the first time, is really allow local jurisdictions and 
local law enforcement and fire fighting to obtain land on 
closed bases for the purpose of training.
    As I understand the law now, they cannot receive this land; 
they have leases. It is my understanding that what the 
Riverside Sheriff's Department has done is engaged in five 1-
year leases for about 350 acres, including a noncommissioned 
officers academy. They use this for training purposes.
    They would like to participate in some private-public 
partnerships with respect to these training exercises but 
really cannot do so with any degree of certainty. As you well 
know, today the Department of Justice can only engage in a land 
conveyance if it is for a prison facility. Therefore, the 
Sheriff's Department has to go through a bureaucratic maze with 
HHS and other departments if they wish to accomplish this.
    Now, it seems to me, Mr. Chairman--and I would hope my 
colleagues on my left would agree--that a major priority of 
Government is public safety. Law enforcement training and fire-
fighting training not only saves the lives of the individuals 
in the forces, it also saves the lives of the civilian sector. 
So well trained fire fighters, well trained police officers, 
well trained deputy sheriffs, are extraordinarily important as 
a matter of public policy.
    I think this conveyance bill would essentially say to local 
government that you have an opportunity to obtain land on these 
closed bases. I can tell you, as a former mayor of San 
Francisco, that many of our law enforcement training programs 
are in less than suitable circumstances. Three hundred acres is 
a good chunk of San Francisco. We don't have anything like 
that. This would mean that land could be conveyed at Alameda 
Naval Air Station, at Treasure Island, at various closed bases 
really throughout the United States, to provide for good and 
positive law enforcement training.
    So I am very happy to support this bill. I am introducing a 
similar bill in the Senate. I am hopeful that you will take the 
lead and pass it expeditiously, and I will do my best on the 
other side.
    Thank you very much.
    [The prepared statement of Hon. Dianne Feinstein follows:]
    [GRAPHIC] [TIFF OMITTED] 45061.009
    
    [GRAPHIC] [TIFF OMITTED] 45061.010
    
    [GRAPHIC] [TIFF OMITTED] 45061.011
    
    [GRAPHIC] [TIFF OMITTED] 45061.012
    
    [GRAPHIC] [TIFF OMITTED] 45061.013
    
    Mr. Horn. Good. We thank you for coming over, and we 
appreciate the time, and we thank you for that excellent staff 
you have.
    I see Menda sitting in the front row over there. We are 
very lucky people when we have staff people like you have.
    Senator Feinstein. Thank you. That is very much 
appreciated. Thank you.
    Mr. Horn. Thank you very much.
    I am now delighted to call on my colleague who represents 
one part of Riverside County, CA, Representative Sonny Bono, 
who will make his supporting statement on behalf of this bill.

STATEMENT OF HON. SONNY BONO, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Bono. Thank you, Mr. Chairman. Thank you for this 
hearing today. I appreciate it.
    I want to thank Ken Calvert for writing this legislation 
and Senator Feinstein for similar legislation and for taking 
the time to go and observe this and understand it clearly and 
to explain it the way she has. She has really said it all.
    I guess to reiterate somewhat, I think her point was that 
if we turn these kind of things over to bureaucracy, having the 
opportunity to have a training center like this, where we can 
focus so directly on law prevention and fire safety and do it 
so well, and have a pilot program that could go across the 
Nation like this and not be interfered with by bureaucracy, 
because we all know that a bureaucracy would get involved, 
start dictating the terms, and the whole thing would fall apart 
and become a frustrating, unfortunate circumstance.
    However, I was fortunate enough to visit this site. It is 
running so efficiently, so effectively, and doing so well, that 
now Los Angeles Police Force wants to become part of it. It is 
a pilot program that can go across the Nation and be a winner 
for us all.
    So I wholeheartedly support this legislation. I wish you 
could all see how effectively it runs and how it is not 
interfered with by complicated bureaucracy, and it leaves it up 
to the local government and the local areas to handle it and 
work an area that they know well and works best.
    So I hope you see fit to approve this legislation. Again, I 
want to thank Ken Calvert for being so active in writing this 
and Senator Feinstein. I support it wholeheartedly.
    I thank you.
    [The prepared statement of Hon. Sonny Bono follows:]
    [GRAPHIC] [TIFF OMITTED] 45061.014
    
    [GRAPHIC] [TIFF OMITTED] 45061.015
    
    Mr. Horn. We thank you very much for coming.
    If there are not other comments from the two 
Representatives, we will move to panel two, which will be the 
Honorable Gordon Creed, deputy assistant commissioner, Public 
Building Service, General Services Administration.
    Mr. Creed, I think you know the routine with the Government 
Reform and Oversight Committee. If you will, Mr. Creed, just 
stand and take the oath.
    [Witness sworn.]
    Mr. Horn. The clerk will note that the gentleman confirmed 
the oath.
    Please proceed.

   STATEMENT OF GORDON CREED, DEPUTY ASSISTANT COMMISSIONER, 
    PUBLIC BUILDING SERVICE, GENERAL SERVICES ADMINISTRATION

    Mr. Creed. Thank you, Mr. Chairman, and Members.
    I am Gordon Creed, the deputy assistant commissioner of the 
Office of Property Disposal in the Public Building Service of 
the General Services Administration.
    I am pleased to have the opportunity to appear before you 
today to discuss House Resolution 404, a bill which would amend 
the Federal Property and Administrative Services Act to 
authorize the transfer to State and local governments of 
certain surplus property if used for law enforcement and public 
safety purposes.
    I note that Congressman Calvert's comment made earlier is a 
step in the right direction with regard to the public safety 
issue that I had raised in the testimony I had submitted for 
the committee.
    I would like to continue with my testimony, because there 
is a lot of misunderstanding as to the descent and distribution 
of property owned by the public both through the Government and 
as it becomes available for reuse by State and local 
communities.
    The Federal Property Administrative Services Act, which we 
generally refer to as the Federal Property Act, is the 
governing authority for the disposal of most Federal real 
property. Under the Federal Property Act, GSA is invested with 
the responsibility for administering an economic and efficient 
system for the orderly disposition of real property which the 
Government no longer needs.
    Under normal procedures, real property which is no longer 
needed by a Federal agency is reported to GSA as excess real 
property. GSA first notifies other landholding Federal agencies 
that such property is available for further Federal 
utilization. If we receive a properly justified request for 
further use of the property for further Federal purposes, it is 
then transferred to the requesting agency. Such transfers among 
Federal agencies fulfills the congressional objective stated in 
the Federal Property Act which is to minimize executive 
agencies' expenditures for the acquisition of property through 
the efficient and effective utilization of excess property.
    If there is no further Federal requirement for a property, 
it then becomes available for disposal as surplus real 
property. Under existing provisions of law, eligible State and 
local government units and certain nonprofit institutions may 
acquire surplus real property for restricted public purposes at 
monetary discounts of up to 100 percent where such purposes 
reflect the highest and best use of the property.
    Eligible public uses include public parks and recreation, 
historic monuments, public airports, public health, public 
education, port use, correctional facilities, highways, and 
wildlife conservation.
    In accordance with the requirements of the Stewart B. 
McKinney Homeless Assistance Act, property--Federal properties 
determined suitable by the Department of Housing and Urban 
Development are also made available for homeless assistance on 
a priority basis by GSA in coordination with the Department of 
Health and Human Resources. State and local public bodies may 
purchase surplus real property by negotiated sale at fair 
market value for unrestricted use.
    Property which is not transferred for public purposes to 
non-Federal public bodies is generally offered for sale to the 
public by GSA through competitive bid offerings and public 
auctions. Such sales benefit the locality by placing the 
property in productive use, returning it to the tax rolls, and 
providing the taxpayer a measure of cost recovery. Proceeds 
from the sale of surplus real property are generally placed in 
the Land and Water Conservation Fund, which is administered by 
the Department of the Interior, and in turn provides grants for 
local park and recreational projects.
    In every decision involving the disposal of excess 
property, we are required by law to consider the environmental 
and cultural impacts resulting from proposed dispositions in 
accordance with the National Environmental Policy Act of 1969, 
the National Historic Preservation Act of 1966, and other 
relevant statutes.
    Hence, the GSA real property disposition process involves 
the full participation of the public, the State and local 
government, and Federal agencies.
    GSA has not taken a formal position on H.R. 404 which seeks 
to amend section 203(p) of the Federal Property Act by 
expanding the qualifying public purpose from correctional 
facilities purposes to law enforcement and public safety 
purposes. My comments therefore are technical in nature.
    The Federal Property Act was amended in 1984 to add section 
203(p) in response to a recommendation made by the Attorney 
General's Task Force on Violent Crime. The task force concluded 
at that time that State and local governments were in need of 
additional resources to reduce prison overcrowding, and the 
conveyance of surplus real property for this purpose was seen 
as a means to help correct this problem.
    The rest of my testimony with regard to the correctional 
facility purposes and to the public safety purposes I think was 
addressed earlier by Congressman Calvert, where he suggests 
that the term ``law enforcement and public safety'' would now 
read ``law enforcement and/or fire and rescue purposes.'' I 
think that is more clear of an intent by Congress for purposes 
of administering this amendment to the Federal Property Act.
    Mr. Chairman, this would conclude my statement. I would be 
pleased to respond to any questions you and the other members 
of the subcommittee may wish to ask.
    [The prepared statement of Mr. Creed follows:]
    [GRAPHIC] [TIFF OMITTED] 45061.016
    
    [GRAPHIC] [TIFF OMITTED] 45061.017
    
    [GRAPHIC] [TIFF OMITTED] 45061.018
    
    [GRAPHIC] [TIFF OMITTED] 45061.019
    
    [GRAPHIC] [TIFF OMITTED] 45061.020
    
    Mr. Horn. Well, I thank you very much for that very 
thorough background as to the role--the extent of surplus 
property and GSA's role in it. Your testimony did raise a 
number of general questions.
    The program agencies sponsor land conveyances for these 
public benefit discounts. What sort of oversight is performed 
by these various program agencies to ensure that the property 
transferred was not put into another unapproved use or sold? 
Does GSA have any role in this oversight and whether from a 
survey standpoint, coordination, providing guidance--how do you 
work that process?
    Mr. Creed. Within Title II of the Federal Property Act, 
different executive agencies have the right to dispose of 
surplus real property for a particular public use, and those 
agencies are also required to monitor the use of the property 
for its compliance of the public purpose.
    With regard to the General Services Administration, we are 
charged by statute to monitor and comply the conveyance of 
properties for correctional facility use and for fish and 
wildlife use.
    We have a compliance program that goes region to region and 
identifies on a regular basis properties to be visited, surveys 
the intended use or the actual use of the property, and ensures 
that the property is not being appropriated to a nonapproved 
use in violation with the terms and conditions in the deed.
    Where the property has been found to be in noncompliance, 
generally the agency--in this instance, the GSA--would request 
for the property to be reverted.
    The Department of Education has a compliance program. The 
Department of Health and Human Services has also a compliance 
program, as does the Department of Interior.
    GSA generally meets with the other executive agencies and 
coordinates to find and apply best practices where, for 
example, if there is one State that may have several different 
properties, it might be best practices today to have one 
surveyor to go and review all public benefit conveyances rather 
than have five agencies go for five different times for five 
different purposes. We are looking to try to re-engineer our 
approach to meet the best practices of the industry as if we 
were a corporation.
    Mr. Horn. Is there a certain timetable GSA has on which 
they try to see what has happened to this disposed property 
that became surplus?
    Mr. Creed. We have a regular 5-year plan where, in 5 years, 
all properties will have been completely surveyed. So it would 
not be once; it would probably be 20 percent per year for 5 
years, to have a total review for compliance purposes, and then 
the sixth year we start over.
    Mr. Horn. Is that a GSA-paid official, or consultant, or 
appraiser, or however one might contract?
    Mr. Creed. Generally, the Office of Property Disposal will 
try to identify properties within an area when a real estate 
specialist is going into an area to review property that is 
being reported excess by an executive agency, to also use the 
trip as a two-fer, meaning they will not only visit a 
particular military base or Coast Guard facility, but if there 
is also additional property in the area, to use that occasion, 
those costs incurred for that trip, to try to get extra mileage 
by going and also checking on compliance of other properties.
    In essence, they will try to find the shortest path here 
for purposes of compliance.
    Mr. Horn. Do you have an estimate of how many properties 
GSA has that they would have to look at 20 percent a year, 
let's say, over a 5-year period, to cover the number, and you 
would have even more at the end of that 5-year period?
    Mr. Creed. Well, for the General Services Administration, 
we would be reviewing only two categories of conveyances, for 
fish and wildlife and for correctional facility. We have those 
numbers, and I would be happy to provide those to the 
committee.
    Mr. Horn. If you have them with you right now; do you?
    Mr. Creed. No, sir, I do not.
    Mr. Horn. We will put them in the record then at this 
point.
    How many reversions of property have you had because it 
didn't meet the intended use for which the property was given 
to a nonprofit or local government or whatever?
    Mr. Creed. I do not have the actual numbers, but I do know 
of instances where the Government has conveyed property and the 
property has not been placed in or maintained for the intended 
use, and therefore there was a requirement that the Government 
revert the property, bring the property back for further 
redeployment. I do know of instances where that has occurred. I 
will be happy to provide that additional information to the 
committee.
    Mr. Horn. Sure. Without objection, it will be included at 
this point in the record.
    As I understand it, some of the public benefit discounts 
are to be used in perpetuity, recreation as one example. So 
that wouldn't be just a 5-year matter. You are saying you 
would--we are looking at the fish and wildlife to see proper 
usage there, and you are also looking at correctional 
facilities.
    Mr. Creed. Yes.
    Mr. Horn. Now, is that because they are primarily in your 
jurisdiction? Correctional comes under Justice, doesn't it?
    Mr. Creed. That is correct. But under the Property Act, the 
deed is executed by the administrator. The Department of 
Justice's role is to review the application of use, and then 
GSA's role is to continue for the compliance.
    Mr. Horn. If the Department of Education gives a public 
benefit for education, is the Department of Education supposed 
to go out and look to see that that school or whatever happened 
on that property is still there every 5 years, or is GSA 
supposed to do that?
    Mr. Creed. It would be the Department of Education.
    Mr. Horn. See, I guess part of me says why doesn't GSA run 
this whole surplus property operation, get the advice of the 
relevant Cabinet Department, but where you have a conflict 
between two Departments or a nervousness that they are not 
carrying out the law--let's say Education is arguing over, is 
law enforcement training really an education kind of thing?
    Now, I happen to be an educator. I have spent 18 years of 
my life as a university president and 18 years of my life as 
one of the founders and later as chairman of the board of the 
National Institute of Corrections. So I spent a lot of time on 
correctional problems.
    The fact is that the law enforcement training, or the 
deputy sheriffs or police in an area, and the role of 
correctional training, there is a lot of overlap, there is a 
lot of educational content in these courses, and I don't know 
why we can't have the agencies give you advice and, if there is 
some difference, GSA has the final say on behalf of the Federal 
Government.
    It seems to me that was the vision of GSA, was to get one 
group that you could hold accountable for the stewardship of 
Federal surplus property. I would just ask, what do you think 
about that?
    Mr. Creed. In the spirit of re-engineering, we always find 
that there are economies of scale to be recognized where 
activities are combined. So as to whether this might be a more 
efficient way, it very well may be, yes.
    Mr. Horn. It just seems to me you are the specialists in 
property usage. It seems to me if somebody is going to be an 
objective source as to whether this property has been used in 
accord with the actual benefit given to it, that GSA could 
imply some consistency across the board and would also be able 
to handle the reuse of that property if it has been misused, 
both the reversion, the advertising, and going around maybe the 
same priority system. You would have to go around when you were 
giving a public benefit the second time.
    But I would think in terms of the administration, with the 
President's goal to have 100,000 police and/or deputies on the 
streets to help reduce the level of violence and improve law 
enforcement in this country, that the application of this area 
for law enforcement training would be right in line with what 
the administration is trying to encourage.
    Do you feel that way?
    Mr. Creed. I believe that the property could lend itself 
toward the potential reuse being sought here by the Riverside 
County, yes, sir.
    Mr. Horn. They are also running into a problem in terms of 
the coroner function. I happened to head a university that had 
a very distinguished criminal justice program and forensic 
program in the chemistry department working for criminal 
justice, and I can assure you, in training of police and in 
training of deputy sheriffs, if they are to be properly 
trained, there is a role for what the coroner does. And if it 
is right there, handy, young, or newly sworn-in recruits can 
see what a coroner does and understand that.
    A lot of court cases, as we know recently, have been lost 
by the inability of either the law enforcement personnel or the 
coroner's staff to be able to state the case in simple English 
to a jury. I would think that this shouldn't be something that 
we say, gee, sorry, we can't do it. And you are not saying it, 
it is another agency that conceivably is saying it, but we have 
got to look at these in a broader context, because they are 
related, they are not something 180 degrees apart. They are 
something that any progressive training program ought to 
utilize. At least as I read this file, that is what struck me.
    What is wrong with the coroner using the facilities and 
also having law enforcement training and still correctional 
facility, whatever?
    Mr. Creed. What GSA has attempted to do over the last few 
years is to be more flexible with the local communities. Where 
a local community has applied for property for public education 
use and found that, due to circumstances beyond their control, 
it is not feasible to continue to use the property, in the past 
GSA would require that the property revert back to the 
Government.
    We found this was frustrating much of the local community, 
when the community would come and say, ``We could have applied 
for it as a historic monument, but we selected public 
education. We are very sorry we made the wrong choice.''
    Our policy today is to allow the transfer of restrictive 
covenants from a particular property to another qualifying 
public benefit discount conveyance. Therefore, we would allow 
the grantee, generally the city, to remain the owner of the 
property. They would retain possession of the property. Rather 
than the property being restricted for one particular use, we 
would allow it to be changed, and therefore not upset the 
intent and the spirit of the community to redeploy for its true 
purposes, which were not clear at the application process.
    Yes, you are absolutely correct, forensic science, it could 
be public health type purposes very clearly, but then again it 
is also combined with educational purposes, public education. 
In fact, there might even be a hybrid. This is one of the areas 
that does cause some frustration for a local community to 
select between option A or option B. These are the available 
options. Sometimes A doesn't fit.
    Mr. Horn. I think you are absolutely right. Does your 
statue, according to your general counsel, need a 
liberalization so you can cross over these categories and not 
have to feel that it is either/or, but it is both/and?
    Mr. Creed. I could obtain an opinion of counsel and provide 
that for the committee if that would help.
    Mr. Horn. If it isn't too much trouble, I would like to 
clarify that. We will put it in the record at this point 
without objection. I think that would be very helpful, not that 
we like to reopen a lot of statutes, but you have a lot of 
experience now since the Hoover Commission dealing with surplus 
Federal property. It seems to me if it would give you the 
flexibility you need to be carrying out the spirit of the law 
and to turn it over to public entities which are higher on the 
running than just putting it up for auction, unless they are 
going to turn it into a parking lot or a mall or something. But 
it just seems to me you need that flexibility. So if there is a 
problem here, I think we ought to know about it and try to make 
a change, as suggested by GSA.
    Mr. Creed. We will prepare that.
    Mr. Horn. Very good.
    Mr. Creed. Request to the counsel's office and have them 
promptly respond back to the committee.
    Mr. Horn. Thank you. I now yield time to the gentleman from 
Illinois, Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Let me say, first of all, you certainly have a way of 
attracting Californians. I thought for a moment that I was out 
West and everybody from California was here.
    Mr. Horn. Let me say to the gentleman, on voting day we 
wish we were in Chicago.
    Mr. Davis of Illinois. Thank you very much. Mr. Creed, is 
this legislation necessary, or could the purpose be served 
under the existing base realignment and closure laws?
    Mr. Creed. That is a very good question. Under the Base 
Closure and Realignment Act, the Administrator of General 
Services was required to delegate his authority to the 
Secretary of Defense. There is no present provision that 
provides for the conveyance of surplus real property for law 
enforcement purposes.
    There is one additional authority that under BRAC, Base 
Closure and Realignment Act, that was given by Congress to the 
Secretary of the Department of Defense, and that is the 
authority to convey property for economic development purposes. 
I think they are called EDC, economic development conveyances.
    Generally, as I understand the EDC process, the properties 
that are available for such conveyances must be for job 
creation and to stimulate the local economic development 
because of the economic conditions created by the military 
closure of an installation.
    I don't know whether the Department of Defense would view 
the intended activities at this subject property to qualify for 
economic development purposes. So there may be a big question 
mark there as to whether the properties could be conveyed under 
DOD's authority. Therefore, it comes back to is there another 
provision to provide for the conveyance of property for law 
enforcement. No, there is not, not in the Property Act. There 
is for public education, there is for public health, but, no, 
there is not for law enforcement purposes.
    Mr. Davis of Illinois. How much property are we talking 
about now? How big?
    Mr. Creed. At March Air Force Base?
    Mr. Davis of Illinois. Yes.
    Mr. Creed. I have some facts, but I think probably Sheriff 
Smith may have more accurate facts than me. I believe it may be 
300 acres for one parcel and another parcel with a hospital 
complex is 25 acres approximately.
    Mr. Davis of Illinois. And is all of it being proposed to 
be used?
    Mr. Creed. I am not certain with regard to the proposal for 
reuse. The legislation as drafted is generic legislation, it is 
not site-specific, so what portion would be eligible for 
conveyance under this authority, that decision has not been 
made.
    Mr. Davis of Illinois. OK. In sub-paragraph 4, there is an 
unusual retroactive provision which suggests that a property 
previously transferred for use as a correctional facility 
could, with the approval of the Attorney General, be 
transferred to a different public entity for use in a law 
enforcement or public safety purpose.
    Would you have any opinion about this provision?
    Mr. Creed. Not at this time.
    Mr. Davis. So actually it is just simply suggesting that as 
long as it is for law enforcement use, it does not really 
matter which entity has it, or if it is found that a different 
entity could use it for the same or similar purposes, then the 
act would still be in force. Is that sort of the understanding?
    Mr. Creed. We have not looked at that provision as to the 
scope of its implementation. It appears to provide some 
flexibility for properties that had previously been conveyed 
for a correctional facility, may now be conveyed or by 
reformation made to allow for law enforcement purposes.
    Mr. Davis of Illinois. The center has already been 
established. That is, the training center has already been 
established at the base and plans are being made now, I 
understand, for police and fire stations and a coroner's 
office. Do you know what this does to the value of the land or 
the value of the facility itself?
    Mr. Creed. I am sorry, could I ask you to repeat the 
question?
    Mr. Davis of Illinois. The training center has already been 
established and I understand that plans are being made to 
police and fire stations and a coroner's office. I guess my 
question was just simply, do you have an idea of what this does 
for the value of the property?
    Mr. Creed. No. 1, I don't know what the value is of the 
subject property at March Air Force Base. If we were to obtain 
an appraisal, I think those matters would be addressed by the 
appraiser as to any in-place use for such purposes as to how 
the property would be valued with these types of improvements 
and activities in place. But I wouldn't know at this time.
    Mr. Davis of Illinois. I think it is a tremendous use 
actually of the property. I think it is a creative way of 
making use of property which otherwise in all likelihood may 
very well be fallow. So I certainly commend the authors of the 
legislation and wish I had been a cosponsor. Thank you very 
much, Mr. Chairman.
    Mr. Horn. We certainly can add you to the bill. I am sure 
the gentleman from part of Riverside County will be delighted 
to file the appropriate form, as soon as we are in session.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Horn. I agree with you on that. I thought for a while 
you were going to say there goes the neighborhood. I mean, is 
it the coroner or what, in terms of having any residential 
housing out there? But, I don't know. It just seems to me that 
this makes a lot of sense.
    Does the gentleman from New Hampshire have any questions?
    Mr. Sununu. No.
    Mr. Horn. We thank you very much for coming. Mr. Creed, can 
you stay with us for a while as we have the third panel? Just 
keep your seat there. We will have the third panel up, and if 
questions come up, it is an easy way to resolve things.
    Panel three, Mr. Torres, Mr. Smith, accompanied by Mr. 
Schertell. I will introduce you individually once you have 
started testifying.
    Gentleman, we have a tradition on this committee of taking 
the oath for all witnesses except Members of Congress.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all three witnesses have 
affirmed. We will just follow the agenda we have laid out here, 
where we will have first Ascension Sam Torres, the chairman of 
the Joint Powers Authority. You might explain to us, Mr. 
Torres, how that works in relation to this surplus property.

 STATEMENTS OF ASCENSION (SAM) TORRES, CHAIRMAN, JOINT POWERS 
AUTHORITY; LARRY SMITH, SHERIFF, RIVERSIDE COUNTY, ACCOMPANIED 
   BY ERICK SCHERTELL, SERGEANT AND LEGAL COUNSEL, RIVERSIDE 
                             COUNTY

    Mr. Torres. Thank you very much, Mr. Chairman, and thank 
you, members of the committee, for allowing us to come here and 
testify on behalf of the Sheriff's Department and explain a 
little bit about March Joint Powers Commission and its support 
of H.R. 404.
    As was already stated, the March Air Force Base was closed 
as a result of a 1993 BRAC action. When it was announced in 
1993, the JPA was formed through the agencies, the surrounding 
political entities of the county of Riverside, the city of 
Riverside, the city of Moreno Valley, and the city of Perris. 
We formed, agreed, there were equal voting shares on this 
commission. Unlike some of our local fellow redevelopment 
agencies, we agreed, we formed, and we moved forward.
    The planning process included a screening of the surplus 
properties, as I stated earlier, for the priority use by other 
DOD agencies, Federal departments and homes assistance 
providers. When this was completed, the land and buildings that 
were not claimed by any of these eligible entities were then 
analyzed for community reuse, and at the March Air Force Base, 
the March Joint Powers Commission approved a master reuse plan 
that has become the guiding policy for the conveyance of the 
surplus policies.
    During this planning process, the 1994 Riverside County 
Sheriff's Department presented a proposal to the JPC to use the 
existing noncommissioned officers academy as a public safety 
training center. This proposal was embraced by the community 
and by the JPC, and subsequently we approved and supported the 
365-acre site which was identified. This, I believe, was the 
site of the training facility, and doesn't include the hospital 
itself, which I believe was pretty actively stated was 
approximately 20 acres. That is now the Ben Clark public 
training facility, which promises to be a model for training of 
fire and safety and police officers.
    In regards to the property conveyance, disposition of 
surplus Federal property can be accomplished via a number of 
different conveyance methods. When public use of the property 
is planned, the most expedient and cost-effective method for 
transferring ownership is through a public benefit conveyance 
process.
    The proposed new owner applies either to the current owner 
of the surplus Federal property, in this case the Air Force, or 
through some sponsoring Federal agency. Although the creation 
of the public training center is a unique opportunity, there is 
currently no sponsoring Federal agency that has been given the 
authority to convey the property for the specific use.
    The March Joint Power Commission supports the Riverside 
County Sheriff's Department for receiving a PBC transfer of the 
proposed site for permanent use as a public safety training 
center.
    As a solution, we support H.R. 404 as that method of 
conveyance that would allow the sheriffs to take over the 
property. The Sheriff's Department now does occupy a portion of 
the site and the training of fire fighters and police officers 
is occurring at March Air Force Base. The Joint Powers 
Authority needs your help to make this a permanent asset to law 
enforcement in southern California. In the process, the 
training center becomes a fine example of the local community 
taking advantage of an unfortunate base closure.
    The result is a win-win situation that should be supported 
in any way possible. We urge your adoption of H.R. 404.
    Again, for us as a local reuse authority that has been 
charged over the last 4 years to find a suitable use for this 
property, it is for us a model to demonstrate not only to the 
local communities, but I think nationally an effective way of 
reuse of disposed property. We wholeheartedly support the 
Sheriff's application and will continue to be here to answer 
any questions or any specific questions to March Air Force 
Base, the Joint Powers Commission and its role in this process.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Torres follows:]
    [GRAPHIC] [TIFF OMITTED] 45061.021
    
    [GRAPHIC] [TIFF OMITTED] 45061.022
    
    [GRAPHIC] [TIFF OMITTED] 45061.023
    
    Mr. Horn. We thank you. Before I ask Sheriff Smith to 
speak, I would like to clarify the exact acreage. In your 
testimony you say by 1996, the buildings plus a 365-acre site 
was identified, and you said for fire, safety, police. So that 
is where that training and pistol range, whatever else is 
needed, would be, on that acreage; is that correct?
    Mr. Torres. Yes.
    Mr. Horn. Sheriff, you are free to get in here. We wanted 
to get the numbers right to start with. Then you are saying 20 
acres besides that would be the coroner facility?
    Mr. Torres. They are noncontiguous prompt properties. The 
hospital, which would be the coroner's office, is separate from 
the contiguous 365 acres which does contain all of the old NCO 
training facility.
    Mr. Horn. How far away is the coroner's area?
    Mr. Torres. My estimation would probably be perhaps a mile.
    Mr. Horn. A mile. So these are not contiguous properties. 
These are two different properties on a vast base of thousands 
of acres, I assume. What is the total acreage of March?
    Mr. Smith. Approximately 7,000.
    Mr. Horn. 7,000 acres. It is a strategic air command base, 
so the runways are pretty long. OK. I think we have got that 
straight.
    Now, Sheriff Larry Smith of Riverside County, he is 
accompanied by Eric Schertell, sergeant and legal counsel for 
Riverside County.
    Mr. Smith. Thank you, Chairman Horn. Honorable Members, I 
am Larry Smith, sheriff of Riverside County. My agency, along 
with a host of partners, is currently operating the Clark Park 
training center at March Base in southern California.
    A quick point of clarification for Congressman Davis, I was 
born in Illinois and lived there in my youth, and Mr. Schertell 
was born and raised in Rhode Island. So we do have some other 
diversity, other than all being from California.
    But I am here today to present testimony on H.R. 404 
authored by Congressman Calvert and urge that it be approved 
by, moved by this committee.
    H.R. 404 and its companion bill, S. 203 authored by Senator 
Feinstein, and I appreciate her appearance here today, will 
provide the means for the Department of Justice to sponsor the 
transfer of surplus Federal real property to local agencies for 
public safety use. For purposes of my testimony today, public 
safety is intended to refer to emergency first responders, 
fire, emergency medical personnel, and law enforcement 
officers.
    The Riverside County's Sheriff's Department would directly 
benefit by this bill, as we will seek the transfer of certain 
land at March Air Force Base in Riverside County, CA. 
Traditionally, public safety and law enforcement training has 
been accomplished separately by individual agencies throughout 
the State of California, and, frankly, throughout this Nation. 
However, we believe that we have a better way. We seek to 
provide a consolidated training and education program available 
to all public safety agencies at a central location.
    We believe that if you train together, you are going to 
work more effectively together in emergency scenes, where every 
second counts and where the loss of time may well mean the loss 
of life.
    At the scene of emergencies, those who respond first must 
work quickly and efficiently. However, law enforcement 
officers, fire department personnel, and emergency medical 
technicians, must also work cooperatively. Each agency has its 
independent responsibility, but they are also clearly 
interdependent. Each must know the responsibilities of the 
other in order to work effectively. Rather than wait for years 
of experience to buildup to fill in the gaps, we propose to 
include this as part of the basic training. That is why the 
Sheriff's Department and fire department have established a 
consolidated training center at March Air Force Base.
    The project includes a consolidated public safety training 
center and resources, also an emergency operations center for 
law enforcement and fire operations, and also the ability to 
provide temporary housing to support emergency workers.
    We are also master planning the site for a Sheriff's patrol 
station and a fire station, which would provide basic service 
to the surrounding community while connected to our training 
curriculum.
    At the site of the current hospital, the second item, the 
plan is to install the Office of the Coroner in that facility 
on two floors, to use an additional two floors in partnership 
with a local university to provide forensic science training, 
as well as emergency medical training for personnel and use the 
remaining balance for administrative support functions and our 
technical and forensic services, such as CAL-ID, which is our 
automated fingerprint system in California.
    We recognize that there is a great potential for this type 
of project to be replicated nationwide at military bases that 
may be closed or otherwise considered for alternative uses, and 
we believe that other programs that are responsive to the 
public's need will be created by local agencies if they are 
given access to surplus Federal property.
    In terms of Federal agency sponsorship of general law 
enforcement project, there is no single agency or collection of 
agencies that can fully sponsor our current project or the 
others I would anticipate seeing in the future. I clearly 
appreciate the efforts of Mr. Creed of the General Services 
Agency, who we met with to assist us in identifying the issues 
here.
    The Department of Education can only handle the training 
aspect and the Department of Health and Human Services can 
handle the coroner function, and maybe some of the emergency 
medical training issues. But the result is you have a split-up 
of the project and you are accountable already to two different 
agencies, and we believe that that will not fully cover our 
project, and also will multiply our administrative coordination 
and reporting problems.
    We have met and discussed the matter with the Department of 
Education. They confirmed that they can't handle the entire 
project, as well as meeting with representatives of Health and 
Human Services, who also confirmed they cannot handle the 
entire project. So the Department of Justice is the natural 
sponsor, I think, for a law enforcement related project.
    We seek their participation as a sponsor, and we think that 
this is critical to our success. If you think about it, it 
seems a reasonable adjustment to consider in the current 
transfer authorization bill. We all agree, I think, that public 
safety and law enforcement activities are a high priority to 
all citizens and public safety is everybody's business.
    H.R. 404 would open the base reuse process to law 
enforcement and public safety agencies nationwide. It doesn't 
seek a higher priority for public safety projects; it just 
simply creates access where no access has been available. The 
Department of Justice, GSA, would hold us to the same standards 
for review and approval of applications, and the necessary 
processes and controls of these applications could remain in 
place.
    Public safety agencies would still be required to meet the 
appropriate test of activity and program services or lose those 
resources. Clearly by this bill, we are asking for access, but 
to also be held to the standards that everybody else must be 
held to, no more, no less. We believe through the passage of 
the bill, we will be able to implement a project that will have 
positive effects on public safety services and simultaneously 
demonstrate a benefit that may arise from these base closures.
    We believe that given access to the surplus property, we 
will have a project that will also save taxpayers money, 
because we will have a more efficient and effective delivery of 
training services, and that is something I think that every 
taxpayer can support.
    I appreciate the time you have provided me to present these 
comments. I stand ready to answer any questions that the 
committee may have. Thank you.
    [The prepared statement of Mr. Smith follows:]
    [GRAPHIC] [TIFF OMITTED] 45061.024
    
    [GRAPHIC] [TIFF OMITTED] 45061.025
    
    [GRAPHIC] [TIFF OMITTED] 45061.026
    
    [GRAPHIC] [TIFF OMITTED] 45061.027
    
    [GRAPHIC] [TIFF OMITTED] 45061.028
    
    [GRAPHIC] [TIFF OMITTED] 45061.029
    
    [GRAPHIC] [TIFF OMITTED] 45061.030
    
    [GRAPHIC] [TIFF OMITTED] 45061.031
    
    [GRAPHIC] [TIFF OMITTED] 45061.032
    
    Mr. Horn. I thank the Sheriff for his testimony. It has 
been very helpful.
    We have in our books here the testimony of Tom Mullen, 
Riverside County Board of Supervisors. Without objection, that 
testimony will be put in the record at this point as if read.
    [The prepared statement of Mr. Mullen follows:]
    [GRAPHIC] [TIFF OMITTED] 45061.033
    
    [GRAPHIC] [TIFF OMITTED] 45061.034
    
    [GRAPHIC] [TIFF OMITTED] 45061.035
    
    [GRAPHIC] [TIFF OMITTED] 45061.036
    
    [GRAPHIC] [TIFF OMITTED] 45061.037
    
    Mr. Horn. Were there any other statements? Here is the 
testimony of Debbi Huffman Guthrie, representing the Monday 
Morning Group, in favor of H.R. 404. Without objection, that 
will be put in the record at this point.
    [The prepared statement of Ms. Guthrie follows:]
    [GRAPHIC] [TIFF OMITTED] 45061.038
    
    [GRAPHIC] [TIFF OMITTED] 45061.039
    
    [GRAPHIC] [TIFF OMITTED] 45061.040
    
    [GRAPHIC] [TIFF OMITTED] 45061.041
    
    [GRAPHIC] [TIFF OMITTED] 45061.042
    
    [GRAPHIC] [TIFF OMITTED] 45061.043
    
    [GRAPHIC] [TIFF OMITTED] 45061.044
    
    [GRAPHIC] [TIFF OMITTED] 45061.045
    
    [GRAPHIC] [TIFF OMITTED] 45061.046
    
    [GRAPHIC] [TIFF OMITTED] 45061.047
    
    [GRAPHIC] [TIFF OMITTED] 45061.048
    
    [GRAPHIC] [TIFF OMITTED] 45061.049
    
    [GRAPHIC] [TIFF OMITTED] 45061.050
    
    Mr. Horn. Let's just see if we have some others here.
    That is it. There will be a letter from the International 
Association of Fire Chiefs, who enthusiastically endorses this 
proposal. That will be put in the record.
    [The letter referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45061.051
    
    Mr. Horn. Now, are there any questions you would like to 
ask of GSA and any questions Mr. Creed would like to ask of 
you? I think this would be a good chance to get all the facts 
out on the table in just what we are talking about.
    Mr. Smith. Mr. Creed and I have personally met and talked 
over the phone, and I think his testimony accurately reflects 
the state of where we are today.
    Mr. Horn. Does the gentleman from Riverside County, Mr. 
Cal- vert, wish to comment on anything else? Do you see any 
loose ends here? We want a complete record.
    Mr. Calvert. I, again, want to thank you, Mr. Chairman, for 
al-lowing us to have this hearing. As you heard from Senator 
Fein- stein and Congressman Bono, this isn't just important to 
Califor-nia, I think this is a program that Sheriff Smith 
correctly outlined that can be very important to the entire 
country for law enforce- ment purposes and public safety 
purposes. It makes good sense.
    Unfortunately, GSA doesn't have the ability to work within 
the existing law, so this is necessary to move forward where we 
can get this project moving forward.
    Sheriff Smith is certainly proud of what he has 
accomplished there to this date, and I think we look forward to 
many of the public safety agencies, both Federal, State and 
local, participating on this property for joint training for 
public safety purposes, whether it is earthquakes in California 
or floods or wherever else we have. So I think this is great 
legislation, with all due modesty.
    I look forward to your support.
    Mr. Horn. I think it is an excellent piece of legislation. 
But let me ask Mr. Creed, in terms of public benefits, if that 
300 acres was used for a law enforcement training benefit, 
nothing else would really occur on that 300 acres, I take it. 
Is that the way the various benefits work? They are 
exclusionary once the mission is fulfilled there?
    Mr. Creed. Under the Federal Property Act, when surplus 
real property is made available for public health purposes, the 
Sec- retary of HHS promulgates regulations to describe what 
qualifies as public health. Presently, there are about eight 
different activities. The latest activi- ty is for the 
homeless, to make that a public health-type activ- ity.
    Similarly, the new section 204(p) could conceivably be 
defined through implementing regulations as to exactly what 
type of activities would encompass law enforcement. So, 
therefore, conceivably training or some other activities could 
further be developed through the Department of Justice. But 
while those types of activities could be probably changed and 
modified, the property would remain restricted for those types 
of public purposes on the rede- ployment of the property. So, 
therefore, no, the property could not be used for some other 
public benefit, discount conveyance.
    Mr. Horn. Let me ask the representatives from Riverside 
County, is all 300 acres needed? Essentially, have you scoped 
out what your needs are?
    Mr. Smith. Yes, the existing property that we currently 
have under sublease is being used pretty much as classroom 
training sites, as well as support area. The proposed uses in 
our program of the open space currently in the process would be 
to develop a

canine and equestrian process, a computer training center, a 
cor- rectional training complex, a driver's training course for 
skills driv- ing, an emergency staging area, fire and life 
safety complex.
    Currently, there is no development of that. An example 
would be fire towers and those kinds of issues, a physical 
training complex and the scenario training village. Because we 
are trying to develop a skills-based training site, and we now 
have in terms of the actual buildings and property, we have the 
classroom setting.
    What we basically need now is to develop the ability to go 
out and do applied training. And that is the essential part of 
the issue of the additional land in the complex.
    Mr. Horn. Let me ask you, Mr. Creed, have you ever been 
faced in GSA with a situation where two agencies were needed to 
sponsor a public benefit discount? Have you had that situation 
arise be- fore? Which is really this situation.
    Mr. Creed. Generally, the situation is you will have two 
commu- nities, you will have a municipality----
    Mr. Horn. Could you get that microphone a little closer? It 
is a little hard to hear.
    Mr. Creed. Generally, what we will encounter is a 
municipality or a county or a State each applying for a public 
use which is dis- similar from the others. We may have public 
education competing against a public health type of use, but 
never have we had the situation where there would be two public 
benefit sponsors for the same property.
    Mr. Horn. I see. They might be contiguous, but they haven't 
been overlapping?
    Mr. Creed. Correct.
    Mr. Horn. And so you haven't really had to bring the forces 
to- gether. We just haven't had that factual situation you are 
telling me?
    Mr. Creed. No, we have not.
    Mr. Horn. So even if we gave you the power based on that 
memorandum you are going to get from legal counsel as to 
liberalizing the law so GSA can act and solve these prob- lems. 
The problem just hasn't arisen before, so you would have a 
problem like this. What do you think is the common sense thing 
to do?
    Mr. Creed. In GSA's role as being the Government's property 
manager and disposal agent, we try to serve as a facilitator to 
bring the different sponsoring agencies together. On May 5th, 
we met with Sheriff Smith and people from Riverside to get an 
initial grasp of the facts surrounding these particular 300 
acres of the base.
    Yesterday, GSA conferred with the Departments of Health and 
Human Services and with the Department of Education to try to 
see if there is some flexibility by combined efforts as a 
single team.
    So is this new territory for GSA? Yes. It it is one that we 
con- tinue to remake available and seek to assist the county of 
Riverside in its efforts to redeploy the property for these 
purposes.
    Mr. Horn. Was your feeling after meeting with the other 
agen- cies that as they interpret the law, there was no way to 
solve the problem?
    Mr. Creed. It was my understanding that they couldn't pull 
the elephant through the door, meaning----
    Mr. Horn. Through the key hole.
    Mr. Creed. Meaning all, both the 300 acres and the 20 acres 
as dedicated for public health purposes, nor could the 
Department of Education pull both parcels through for public 
education. But there may be an approach whereby one parcel 
could be for public education and perhaps the other parcel 
could be for public health-type use, and there might be some 
flexibility with these two departments to try to attain a 
success here.
    Mr. Horn. I think GSA would be a good arbiter on behalf of 
the executive branch to solve the problem. If you need the 
authority, we certainly ought to try to amend the bill to get 
that authority and bring it before the House and ship it to the 
Senate. I think we could solve problems all over America, 
because there has got to be similar situations like this that 
will grow as we face up to what are we going to do with the 
huge lands that have been turned over as surplus Federal 
property. That gives the community and the Government 
flexibility to do the right thing, which I think is important.
    Are there any other questions? We are delighted to have the 
ranking minority member here, Mrs. Maloney of New York.
    Mrs. Maloney. Thank you, Mr. Chairman. I just really would 
like to ask Mr. Calvert, why you are using this approach as 
opposed to just a land conveyance that happens all the time in 
Congress, that is narrowly tailored just for this specific 
purpose and this particular situation?
    Mr. Calvert. Under the existing laws, as was pointed out 
earlier, GSA cannot convey the property other than for a 
corrections facility or for education uses or public health. So 
for law enforcement purposes and public safety purposes, we 
need this legislation in order for the Department of Justice to 
be able to be the sponsoring agency and to convey the property.
    Mrs. Maloney. But oftentimes in Congress they will put in 
just a special conveyance bill for a particular piece of 
property.
    Mr. Calvert. We believe that besides just March Air Force 
Base, California, as Senator Feinstein pointed out earlier, we 
have experienced a number of base closures, and law enforcement 
throughout the State of California and certainly throughout the 
United States may also find it necessary to find excess Federal 
property for this type of use. So it would give the flexibility 
to GSA throughout the country by changing language to allow for 
law enforcement and public safety activities to be conveyed 
without further legislation.
    Mrs. Maloney. Did you consider trying to arrange the 
transfer of this property under the base realignment and 
closure laws? Did you try to convey it through those laws, and, 
if not, why didn't you?
    Mr. Calvert. Again, this is certainly for the public use 
and for the local communities, so it doesn't really define as 
economic development, because it is not going to be developed 
into an industrial park or a shopping center. It is to be used 
for public use. So it really doesn't define as economic 
development under the base realignment laws as they exist 
today.
    So really we certainly attempted to find a way to do this 
without having to pass this legislation. There has been a lot 
of other Members, both Republicans and Democrats, by the way, 
who have also tried to find some ways to do this and have found 
that this legislation is necessary in order to make sure that 
we can have this take place, not only in Riverside, but 
throughout the United States.
    Mrs. Maloney. I thank you for your testimony, and I have no 
further questions. It merely expands it to law enforcement. It 
already covers correctional. I have no objection to it. I would 
request that my opening statement be put in the record as read.
    Mr. Horn. It will be put in the record at the beginning of 
opening statements as read.
    Mrs. Maloney. Thank you.
    Mr. Horn. Mr. Davis.
    Mr. Davis of Illinois. No further questions, Mr. Chairman.
    Mr. Horn. Well, any further comments, Mr. Creed, you would 
like to make? Gentlemen? Mr. Calvert, would you like to make 
any comment?
    If not, we thank you very much for coming. We know that is 
a long trip. We hope you enjoy the sights of Washington, DC, 
and you are always a welcome guest here. With that, we adjourn 
this hearing.
    Let me note for the record, to our friend recording this, 
the list of staff present: J. Russell George, staff director 
and counsel; Mark Brasher, professional staff member; John 
Hynes, professional staff member; Andrea Miller, clerk; Mark 
Stephenson, minority professional staff member; Ellen Rayner, 
minority chief clerk; Bob Cochran, court reporter; and the GMIT 
Interns, Melissa Holder, Grant Neuman and Michael Presicci.
    The subcommittee stands adjourned.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]

                            <greek-d>
</pre></body></html>
